-8017

NO.

supreme Court, U S’

filed

FEB 1 1 2021
IN THE SUPREME COURT OF THE UNITED STATES

OFFICE OF THE Cl f=bv

SUBRINA BRENHAM AND SUBRINA'S TAX SERVICE, PETITIONER(S)
VS.
JOSEPH KEMP AND KRR HH RETAIL, DEFENDANT/RESPONDENT(S)
ON PETITIONER FOR A WRIT OF CERTIORARI
SUBRINA LYNN BRENHAM
6621 LA GRANGE DRIVE
DALLAS, TEXAS 75241

(214) 900-7327

RECEIVED-!
MAY 11 2021
1 §5p^ISu3Lj

QUESTION(S)PRESENTED
i.

Whether the Supreme Court of Texas case no. 20-0246 denial on November 13,
2020 of my (1) right to a rehearing and the (2) Supreme Court failure to reverse the
Fifth circuit Court of Appeals case No. 05-18-9377-CV decision on January 28, 2020
should be reversed?
il.
Whether where one of the deciding judges in the Fifth Circuit Court of Appeals
decision, to wit was Judge Barbara Rosenberg was disqualified to act as a judge in
my case as provided by the Texas Constitution Article V, section 11?
III.
Whether my right to due process, as guaranteed by the 14th Amendment of the
United States Constitution was violated where a Civil Court judgment was rendered
in my favor in a Dallas County Civil Court Cause #DC-19-09551, by Presiding Judge,
Bonnie Goldstein was reversed?

l

IV.
Whether Judge Barbara Rosenberg was required to recused herself from rendering
a decision in the appeal of my Dallas County Civil Court Dallas County Case?
V.
Whether my right to a fair trial was denied in the appeal of my civil court case to
the Fifth Circuit Court of Appeals in Dallas Texas and the Texas Supreme Court,
documents are examples where my 14th amendment right to equal protection of
the law was denied based on my race as an African American plaintiff?

2

LIST OF PARTIES

SUBRINA BRENHAM AND SUBRINA'S TAX SERVICES

JOSEPH KEMP AND KRR HH RETAIL

RELATED CASES
Supreme Court of Texas at Austin Texas No. 20-0246, Judgement entered
on 11/13/2020.
Court of Appeals Fifth District of Texas at Dallas No. 05-18-01377-CV,
judgement entered on 1/28/2020.
44th Judicial District Court Dallas County, Texas Trial Court
No. DC-16-09551, judgement entered on 10/16/2018.

3

TABLE OF CONTENTS
OPINIONS BELOW

6

QUESTIONS PRESENTED__________________________
JURISDICTION__________________________________
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVE.
STATEMENT OF THE CASE_________________________
REASONS FOR GRANTING THR WRIT_________________
CONCLUSION________________________

1-2

INDEX OF APPENDICES
Appendix A

Decision of Texas Supreme Court

Appendix B

Decision of Texas Fifth Circuit Court of Appeals

Appendix C

Final Judgement 44th Judicial District Court

4

6
6
7
8

TABLE OF AUTHORITIES CITED

Love v. Wilcox, 119 Tex. 256, 28 S.W.2d 515,518 (1930); Taylor v. Williams, 26 Tex.

583, 587 (1863).
McElwee, 911 S.W. 2d at 186; Gulf Maritime, 858 S.W. 2d at 560.
Fry v. Tucker, 146 Tex. 18, 202 S.W.2d 218, 221 (1947).
Postal Mut. Indemnity Co. v. Ellis, 140 Tex. 570,169 S.W.2d 482,484 (1943).
Union Pacific Resources Co., 969 S.W.2d 427, 428 (Tex. 1998);
Buckholts Indep. Sch. Dist. v. Glaser, 632 S.W.2d 146,148 (Tex. 1982);
Indemnity Ins. Co. v. McGee, 356 S.W.2d 666, 668 (Tex. 1962); Merendino v.
Burrell, 923 S.W.2d 258, 262 (Tex. App.-Beaumont 1996, writ denied);
McElwee v. McElwee, 911 S.W.2d 182, 186 (Tex. App.- Houston [1st Dist.] 1995,
writ denied

5

OPINIONS BELOW
Texas Supreme Court Opinion is in Appendix A
Fifth Circuit Court of Appeals Opinion is in Appendix B

JURISDICTION

The Texas Supreme Court decided my case was on July 3 ,2020. A
copy of that decision appears at Appendix A.
A timely petition for rehearing was thereafter denied on the
following date: November 13,2020, and a copy of the order
denying rehearing appears at Appendix B.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
14th Amendment of the United States Constitution.
Texas Constitution Article V, section 11. (1&3)

6

STATEMENT OF THE CASE

My case involves a situation where a disqualified judge (as provided by the Texas
constitution, Article V, section 11) to wit Judge Barbara Rosenberg, did not
withdraw from presiding and rendering the decision in an appeal my civil case.
Texas courts have long held these grounds are exclusive and no other bases for
disqualification exist.

REASONS FOR GRANTING THE PETITION

My right to due process as provided by the 14th Amendment of the
United States Constitution was denied when a disqualified judge as
provided by the Texas Constitution Article V, section 11, (1&3) did not
withdraw/ recuse herself from rendering a decision in my appeal case.

7

CONCLUSION
Generally, Texas courts have simplified many of the ethical issues relating to
constitutional disqualification, by treating it as a question of subject-matter
jurisdiction that cannot be waived. Whether a party raises the issue or not, a
Texas judge who is constitutionally disqualified has an absolute duty to withdraw
from the case. Moreover, disqualification may not only be raised at any time by
the parties, but either a trial court or an appellate court may raise the issue of
disqualification on its own motion. Therefore, disqualification, like other
jurisdictional barriers, cannot be waived.
My petition for a writ of certiorari should be granted because, Judge
Rosenberg was disqualified to render a decision as provided by Article
5, section 11 of the Texas Constitution because disqualification of a judge
"rigidly enforced." In Texas.

Respectfully submitted,
Subrina Lynn Brenham, ProSe

Date:

No.
8

